Nos. 20A12 AND 20-26
IN THE SUPREME COURT OF THE UNITED STATES
_________________
WESLEY PURKEY, PETITIONER
v.
WARDEN OF USP, TERRE HAUTE, UNITED STATES OF AMERICA
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION TO APPLICATION FOR
STAY OF EXECUTION AND TO PETITION FOR A WRIT OF CERTIORARI, via email, this 15th day of July 2020.
As required by Supreme Court Rule 33.1(h), I certify that the document contains 383 words
Excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury, that the foregoing is true and correct. Executed on July 15, 2020.
[See Attached Service List]
Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 15, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: 20-26 PURKEY V. WARDEN (CAPITAL CASE)
ALAN E. SCHOENFELD - alan.schoenfeld@wilmerhale.com
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800

